Reed Smith LLP
Reed Smith Centre
225 Fifth Avenue
Pittsburgh, PA 15222-2716
+1 412 288 3131
Fax +1 412 288 3063
reedsmith.com

Colin E. Wrabley
Direct Phone: +1 412 288 3548
Email: cwrabley@reedsmith.com

July 26, 2019
Via Electronic Filing and UPS Mail
Mr. Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Givens v. Mountain Valley Pipeline, LLC, No. 19-54
Dear Mr. Harris:
We represent Respondent Mountain Valley Pipeline, LLC, in the above-captioned matter. Pursuant to
Rule 30.4, we write to request a 21-day extension of time to file a brief in opposition to the petition for
writ of certiorari. If the requested extension is granted, Mountain Valley’s brief in opposition would be
due on or before August 29, 2019.
On July 18, 2019, we received notice that Owners’ Counsel of America and others intend to file an amicus
curiae brief in support of the petition, and other amicus briefs in support of the petition also may be
submitted. Those briefs are due August 8—the same day Mountain Valley’s brief in opposition is
due. Mountain Valley respectfully requests a 21-day extension in order to review and properly address
any amicus briefs filed in support of the petition.
In addition, counsel responsible for preparing the brief in opposition have, or have had, multiple other
work responsibilities and deadlines that provide good cause for the rested extension. These include
preparation of an amicus brief on the merits in this Court in support of petitioners in Maine Community
Health Options v. United States, No. 18-1023 (U.S.) (due September 6, 2019); preparation of a principal
brief in the U.S. Court of Appeals for the Fourth Circuit in U.S. Home Corporation v. iStar Financial,
Inc., No. 19-1485 (due August 22, 2019); and a trial originally scheduled to begin August 6, 2019, in
Berghoff v. Chesapeake Appalachia, LLC, No. 5:15-cv-126 (N.D. W. Va.) (the court postponed the trial
just yesterday).

ABU DHABI  ATHENS  AUSTIN  BEIJING  CENTURY CITY  CHICAGO  DALLAS  DUBAI  FRANKFURT  HONG KONG  HOUSTON  KAZAKHSTAN  LONDON  LOS ANGELES  MIAMI  MUNICH
NEW YORK  PARIS  PHILADELPHIA  PITTSBURGH  PRINCETON  RICHMOND  SAN FRANCISCO  SHANGHAI  SILICON VALLEY  SINGAPORE  TYSONS  WASHINGTON, D.C.  WILMINGTON

US_ACTIVE-148308265.1-CEWRABLE 07/26/2019 3:46 PM

Mr. Scott S. Harris
July 26, 2019
Page 2

For all these reasons, Mountain Valley respectfully requests a 21-day extension of time, until August 29,
2019, to file a brief in opposition to the petition for writ of certiorari.
Very truly yours,

/s/ Colin E. Wrabley
Colin E. Wrabley
CEW:gw
cc:

Christopher S. Johns, Esq.

